IN THE

~upreme

<!J:ourt of tbe Wntteb ~tates
No. 19-494

DAVID ZACHERY MORGAN,

Petitioner,

v.
STATE OF WASHINGTON,

Respondent.
On Petition for a Writ of Certiorari to the
Supreme Court of Washington
CERTIFICATE OF COMPLIANCE

Pursuant to this Court's Rule 33.1(h), I hereby certify that the Brief of Professors
Brooks Holland and Benjamin Levin as Arnici Curiae in Support of Petitioner contains
5,286 words, excluding parts of the document that are exempted by Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 18, 2019.

Robert K. Kry
MOLOLAMKEN LLP

The Watergate, su· e 660
600NewHampshi eAve.,N.W
Washington, D.C. 20037
(202) 556-2000
rkry@mololamken.com
Counsel for Arnici Curiae

